Credit Card Agreement
for Cash Rewards, Prestige, Premium and Life Visa® Credit Cards

This document, together with the “Account Summary Table” on the accompanying card carrier, form the “Agreement” that
governs the credit card account established for you by Regions Bank (“Account”) and each Visa credit card or other
device issued to access the Account (a “Card”). In this Agreement, “we,” “us” and “our” mean Regions Bank, and “you”
and “your” mean each person who applied for or otherwise agreed to be responsible for the Account. If we use a
capitalized term in this Agreement but we do not define that term, the term refers to the corresponding term used in your
billing statement. Please read and keep these documents for your records. By keeping, using or permitting others to use
the Account or any Card, you accept the terms of this Agreement.
Important Terms of Your Account
Term
What It Means To You
Credit Limits We will give you a credit limit for your Account.
We also may give you different limits for different
types of transactions. For example, we may tell
you that you can only use part of your credit limit
f or Cash Advances. We will tell you the initial
credit limits for your Account on the card carrier.
You agree not to attempt any transaction that
would cause any outstanding balance on your
Account to exceed the credit limit for that balance.
If any balance on your Account goes over the
credit limit for any reason, we may require you to
pay the amount that is over the limit right away.
Default
You will be in default under this Agreement if:
• You f ail to make any payment required by this
Agreement,
• You f ail to make any payment required by any
other agreement you may have with Regions,
or
• You f ail to keep any of your obligations under
this Agreement or other agreement you may
have with Regions.
Changing
Terms

We may change the terms of this Agreement
(including interest rates, fees and other charges)
at any time. These changes may include adding
or deleting terms.
If you have the right to reject any change, and if
you reject the change in the manner provided in
our notice of the change, we may terminate your
right to receive additional credit under this
Agreement and may ask you to return all Cards,
Access Checks and other credit devices as a
condition of your rejection. In addition to our right
to change the terms of this Agreement, we also
may replace your Card with another Card at any
time.

Our Rights and Responsibilities
Your billing statements also will show your credit
limits and available credit. We may change your
credit limits at any time, subject to any
requirements or restrictions of applicable law.
This Agreement applies to all transactions and
balances on your Account, including any
transaction that would cause any outstanding
balance on your Account to exceed any of your
credit limits.
If you are in default, in addition to our other rights
under this Agreement and subject to applicable
law, we can require immediate payment of the
total outstanding balance owed on your Account.
Unless prohibited by applicable law, we can also
require you to pay our collection costs, attorneys’
f ees, court costs and all other expenses we incur
to enf orce our rights under this Agreement, as
described more fully below in the “Collections”
section.
We may change these terms based on changes
to your risk profile, such as changes to your
payment patterns, transaction patterns, balance
patterns, and utilization levels of this and other
accounts, credit bureau information (including
the age, history and type of other accounts), and
relationships between each and all of these
measures of risk. We may also change terms for
reasons not related to your individual credit
history, such as overall economic and market
trends, changes in applicable law, product
design, and business needs. If we plan to
change this Agreement, we will comply with the
notice requirements and any other restrictions of
applicable law that are in effect at that time.

Using Your Account
You may use your Account for the types of transactions described below. You may not use a Balance Transfer, Access
Check or any other Cash Advance to make a payment on this or any other account with us or our affiliates. You may not
use or permit your Account to be used for any illegal transaction. You may use your Account only for transactions that are
legal where you conduct them. We may charge your Account for any illegal transactions, and we will not be liable if you
engage in an illegal transaction. We may deny authorization of any transactions identified as Internet gambling. You may
Rev. 11/02/2020

Page 1

not use your Account to conduct transactions in any country or territory, or with any individual or entity that is subject to
economic sanctions administered and enforced by the U.S. Department of the Treasury’s Office of Foreign Assets control
(“OFAC”). Use of your Card in those countries will be blocked.
Transaction
What It Means To You
Our Rights and Responsibilities
Purchases
You may use your Account to buy or lease goods All Transaction Fees and adjustments associated
or services.
with Purchases, as well as any Late Fees, Annual
Fees and other fees listed in the “Account Fees
and Charges” section below, will be treated as
Purchases under this Agreement.
Balance
You may request us to make an advance from
We permit Balance Transfers from most nonTransfers
your Account to pay a balance you owe to
Regions credit card accounts. We reserve the
another creditor. From time to time, we may offer right not to permit Balance Transfers from other
you the option to use a special Access Check to
Regions loans or accounts. All Transaction Fees
make a Balance Transf er. Except for any such
and adjustments associated with Balance
special offer, Balance Transfers do not include
Transf ers will be treated as Balance Transfers
balances you pay using an Access Check.
under this Agreement.
Cash
You may obtain cash or other advances in any of All Transaction Fees and adjustments associated
Advances
the f ollowing ways:
with Cash Advances will be treated as Cash
• From us, another financial institution, a nonAdvances under this Agreement.
f inancial institution, or automated teller
machine that accepts your Card.
• By using a check we may provide to you to
access your Account (an “Access Check”), as
described more fully below in the “Access
Check Transactions” section.
• By purchasing items that can be traded right
away f or cash, such as money orders,
traveler’s checks, lottery tickets or casino
chips.
• By placing bets or wagers (if legal).
• By using an advance to send funds via wire
transf er or other payment service, or to pay
taxes, fines or similar amounts.
• By getting an advance deposited to a
Regions checking account if you are enrolled
in an overdraft protection program under a
separate agreement with us (an “Overdraft
Advance”).
Access
Each Access Check must:
Your billing statement will show the amount of
Check
• Be f ully completed and signed by the person
each Access Check we paid. We will not return
Transactions
whose name is printed on the Access Check, Access Checks to you, but you may ask us for
• Not be f or an amount that would cause your
copies of paid Access Checks. For each copy we
Account to go over any of your credit limits,
provide, we may charge you the Document Fee
• Not be used if you are in default under this
described below in the “Account Fees and
Agreement, if we suspended or closed your
Charges” section.
Account, or if we told you not to use the
You may ask us to stop payment on an Access
Account, Card or Access Checks for any
Check or to cancel a stop payment request by
reason, and
• Not be postdated or stale. This means the
calling us at 1-800-253-2265. When you make
date you put on the check cannot be a date
this request, you must provide us with the Access
which is either (1) later than the date we get
Check number, dollar amount, and payee exactly
it, (2) more than six months before the date
as they appear on the Access Check. Stop
we get it, or (3) af ter any expiration date
payment requests on an Access Check are
provided for that Access Check.
ef f ective for six months from the day that we
place the stop payment. We need at least two (2)
If we return an Access Check because it does
business days to be able to stop payment. We
not meet any of these requirements, we may
will not be liable to you or anyone else if we stop
charge the Returned Check Fee described
(or do not stop) payment [or cancel (or do not
below in the “Account Fees and Charges”
cancel) a stop payment request] on an Access
section. If we pay the Access Check anyway,
Check. If you request us to stop payment, we
you still have to pay us the amount of that Check may charge the Stop Payment Fee described
Rev. 11/02/2020

Page 2

Promotional
Transactions

Term It Plans

and any applicable interest or fees. Unless
required by applicable law, we do not have to
pay any Access Check.
We may offer a limited time introductory or other
promotional interest rate on certain transactions
on your Account that are lower than the standard
rates f or those types of transactions
(“Promotional APRs”) and/or limited time
introductory or other promotional transaction fees
(“Promotional Fees”) that may be higher or lower
than the standard fees provided below in the
“Fees and Charges” section.
We may offer you the option to create a plan (a
“Term It Plan” or “Plan”) to pay off certain recent
Purchases on your Account in substantially equal
monthly installments over a specified period of
time (the “Repayment Period”). To be included in
an of fer, a Purchase must be at least a specified
dollar amount that we determine, which we may
change any time.
We have no obligation to offer you the option to
create a Plan. In determining whether to offer any
Plans to you, we will consider your
creditworthiness (including your repayment
history for this Account), the amount of credit
available on your Account, and other factors. We
may limit the number of outstanding Plans you
may have, and we may change this number at
any time.
At the time of any offer, we will provide the terms
of each offered Plan, including the annual
percentage rate (“APR”), the Repayment Period,
and the amount of the monthly payment that
would be required to pay off the Plan during the
Repayment Period (the “Term It Payment” or
“Plan Payment”).

Term It
Payment

Rev. 11/02/2020

For each Plan you choose to create, we will
include the Term It Payment in the Total
Minimum Payment Due shown on your billing
statements during the Repayment Period for that
Plan. The amount of each Term It Payment is
calculated on the assumption that you will make

below in the “Account Fees and Charges”
section, whether or not we actually stop payment.
We will explain the terms and conditions of any
promotion when making the offer. Except as we
tell you in a promotional offer, the rest of this
Agreement will apply to transactions at the
Promotional APR or with the Promotional Fee.
Subject to any requirements of applicable law, we
may terminate any Promotional APR if we do not
receive any required payment on your Account by
the Payment Due Date.
When you create a Plan to pay off a Purchase,
we will credit the amount of that Purchase to your
Purchase balance as of the same day that the
new Plan posts to your Account. At the end of the
Repayment Period for each Plan you create, the
Plan will expire. If you have not paid the full
amount owed on any Plan by the end of its
Repayment Period, this outstanding balance will
be transf erred to your Purchase balance.
At our option, we may choose to terminate any
Term It Plan if :
• Af ter you create a Plan, we are required to
reduce the APR on the Plan by the
Servicemembers Civil Relief Act or similar state
laws;
• You have not paid your Minimum Payment Due
f or any two or more consecutive billing cycles
during the repayment period for the Plan;
• You f ile for bankruptcy or some other
insolvency proceeding is filed by or against
you;
• You do not honor the terms of this Agreement;
• You are declared incompetent or mentally
incapacitated or in the event of your death;
• You request temporary payment relief due a
natural disaster or other hardship; or
• Your Account is closed when you enter into a
hardship assistance program.
We also have the right, but no obligation, to
terminate a Term It Plan upon your request. If a
Plan is terminated for any reason, the full amount
owed on that Plan will be transferred to your
Purchase balance. Once a Plan is terminated, the
outstanding balance cannot be placed in another
Plan.
If the outstanding balance for any expired or
terminated Plan is transferred to the Purchase
balance f or your Account, we will apply the same
APR to this Purchase balance that had applied to
the Plan, except as otherwise required by
applicable law.
For any Term It Plan, the Term It Payment is
disclosed to you at the time you agree to create
the Plan. We calculate each Plan Payment based
on the amount of the Purchase placed in the
Plan, the applicable interest rate, and the
Repayment Period, rounding to the nearest
Page 3

Automatic
Charges

Foreign
Transactions

Authorizing
Transactions/
Suspending
and Closing
your Account

each Plan Payment on the Payment Due Date. If
you do not make each Plan Payment by the
Payment Due Date, you may not pay off the Plan
bef ore it expires and is transferred to your
Purchase balance, as explained in the “Term It
Plans” section above.
You may authorize others to make automatic and
recurring charges to your Account. It is your
responsibility (not ours) to notify anyone you are
paying through automatic charges if your Card
number or expiration date changes or if your
Account is closed or suspended.
If you wish to cancel any recurring charges that
you previously authorized, you must notify the
merchant (not us) that you are terminating your
authorization for those charges.
Any transaction that is made in a foreign currency
will be converted to U.S. dollars. Foreign
transactions include, for example, online
purchases from foreign merchants and Cash
Advances obtained from an ATM or f inancial
institution in another country.

We may limit the number or dollar amount of
transactions on your Account. We are not
obligated to authorize or honor any transaction,
even if you have credit available. A merchant
does not have to accept your Card, Checks or
Account. We will not be liable to you or anyone
else if (1) we do not authorize a transaction or we
decline to pay an Access Check, regardless of
the reason, or (2) a merchant will not accept your
Card, Checks or Account. Also, we will not be
liable to you or anyone else for goods or services
you bought or leased using your Account, or if
your Card is retained by us, any other financial
institution, or any merchant.
You may close your Account by notifying us in
writing at the address shown on your billing
statement or by telephone at 1-800-253-2265.
Af ter your Account is closed, whether by you or
us, you no longer may make transactions on your
Account, but your obligations under this
Agreement will continue until we receive full
payment of all amounts owed under this
Agreement, including the outstanding balance for
any Term It Plans you created.

penny. The actual interest charged on any Term
It Plan will be calculated as described in the
“Interest Charges” section below.

If you have set up recurring preauthorized
charges with a merchant and we issue a new
credit card with a different number and/or
expiration date to you, for your convenience we
may (but are not obligated to) make available
your new card number and/or expiration date so
that those charges may continue.

If you make a transaction in a foreign currency,
the transaction will be converted by Visa
International into a U.S. dollar amount in
accordance with the operating regulations or
conversion procedures in effect at the time the
transaction is processed. Currently, those
regulations and procedures provide that the
currency conversion rate to be used is either (1) a
wholesale market rate or (2) a governmentmandated rate in effect one day prior to the
processing date. The currency conversion rate in
ef f ect on the processing date may differ from the
rate in ef f ect on the transaction date or posting
date.
We may suspend or close your Account or
otherwise terminate your right to use your
Account. We may do this at any time, for any
reason and, unless required by law, without first
notif ying you. Your obligations under this
Agreement continue even after we have done
this. Upon our request, you must destroy all
Cards, Access Checks or other credit devices on
the Account.
Af ter your Account is closed, you must contact
anyone authorized to charge transactions to your
Account, such as internet service providers,
health clubs or insurance companies. These
transactions may continue to be charged to your
Account until you change the billing. Also, if we
believe you have authorized a transaction or are
attempting to use your Account after you have
requested to close the Account, we may allow the
transaction to be charged to your Account.

Your Payment Obligations
You promise to pay us for all transactions on your Account, including those by anyone whom you allow to use the
Account. You also promise to pay any interest, fees and other amounts you owe us under this Agreement. We will send
you billing statements that show the amount you owe, the minimum amount you must pay for a particular billing cycle, and
Rev. 11/02/2020

Page 4

the date on which that required payment is due. You agree to review each statement upon receipt, and to call us promptly
at 1-800-253-2265 about any suspicious transactions on your Account.
Term
What It Means To You
Our Rights and Responsibilities
How and
Where to
Make
Payments

Minimum
Payment Due

Your payments must conform to the requirements For payments mailed to the address on the
provided in this Agreement and each billing
payment coupon:
• We will credit each payment as of the date it is
statement. The requirements on the statement
may vary without prior notice. All payments must
received if (1) the payment is received by 5 p.m.
be made in U.S. dollars, and drawn on a financial
local time at this address, and (2) the payment
institution located in the United States. You
meets the requirements of this Agreement.
should mail your check or money order, with the
• Payments received after 5 p.m. local time at this
payment coupon from each statement, to the
address on any day (including the Payment Due
address shown on the payment coupon.
Date), but that otherwise meet the requirements
of this Agreement, will be credited as of our next
You may not use a postdated check to make a
business day.
payment. If you postdate a payment check, we
• Credit f or any other payments may be delayed
may cash it upon receipt or return it to the person
up to f ive (5) days.
who sent it, in either case without waiting for the
date shown on the check. We are not liable to
For other payments:
you f or any loss or expense you incur that arises • If we let you pay at a bank branch, we will credit
out of any action we may take.
the payment as of the day we receive it.
• If we let you pay online or by phone, we will tell
Any payments marked “paid in full” must be
you how to pay and when your payment will be
mailed to the address for disputed payments
credited.
shown on the back of your billing statement, and
not to the general payment address shown on the We may delay increasing your available credit for
payment coupon included with your statement.
up to 10 days after you make a payment.
Except as required by law, no payment, including
those marked with “paid in full” or with any other
restrictive words, shall operate as an accord and
satisfaction without the prior written approval of
one of our senior officers.
You may pay your Account in f ull at any time
without penalty. Among other information, each
billing statement will show you:
• The total outstanding balance owed on your
Account (the “New Balance”);
• The outstanding balance owed but not yet
due on each Term It Plan (a “Plan Balance”);
• The combined total of all Plan Balances (the
“Total Plan Balance”);
• The “Adjusted New Balance”, which is the
New Balance minus the Total Plan Balance;
and
• The combined total of all Plan Payments that
are currently due on the Account (the “Total
Plan Payment”).
To calculate the New Balance at the end of each
billing cycle, we start with the New Balance from
the previous cycle. Then we add any new
transactions in the current cycle, and subtract any
payments or credits received during that cycle.
Finally we add any fees and interest that accrued
during the cycle, and make any necessary
adjustments, such as for disputed transactions.
For each billing cycle, you must pay at least the
Total Minimum Payment Due shown on your
billing statement by its Payment Due Date.
The Total Minimum Payment Due for each billing
cycle will be:

Rev. 11/02/2020

We can accept late payments, partial payments, or
payments with any restrictive writing without losing
any of our rights under this Agreement.
If a payment is credited to your Account but is
returned unpaid in a later billing cycle, we will
recalculate the Total Minimum Payment Due for the
billing cycle in which the payment was originally
credited.
If you overpay or otherwise have a credit balance
on your Account, we will not pay interest on the
credit balance. We will send you a refund for any
credit balance as required by law or earlier at your
request. If a credit balance of less than $1 has
remained on your account for at least 6 months (for
example, because you have not used your account
or requested a ref und), you agree that we may
automatically remove that credit balance, and you
waive any claims you may have to that credit
balance.
We reserve the right to reject any payment if your
Account has a credit balance as of the day we
receive that payment.
Generally, credits to your Account, such as refunds
f rom merchants, are not treated as payments and
may not be applied toward your Total Minimum
Payment Due. We will choose how to apply a credit
to your existing Account balances. A merchant
credit for a Purchase that was included in a Term It
Plan will not automatically be credited to that Plan.
Page 5

•
•
•
•

Grace Period
on Paying
Interest

Rev. 11/02/2020

Any past due amount;
Any new Late Fee;
Any Term It Payment; and
The greatest of:
(1) The total of
(a) one percent (1%) of your Adjusted
New Balance (excluding any new Late
Fee or new interest charges on that
balance), rounded to the nearest
penny, and
(b) any interest that accrued on the
Adjusted New Balance during that
cycle,
with this total rounded down to the
nearest dollar;
(2) The Adjusted New Balance, if it is less
than $25; or
(3) $25 if the Adjusted New Balance is at least
$25.
Payments made in any billing cycle that are
greater than the Total Minimum Payment Due will
not af fect your obligation to make the Total
Minimum Payment Due for the next billing cycle.
A “Grace Period” is any period of time when no
interest accrues on certain transactions or
balances.
• For Purchases placed in a Term It Plan –
Once a Purchase is placed in a Term It Plan,
there is no Grace Period on that Purchase.
• For all other Purchases:
 There is a Grace Period on Purchases if you
pay your New Balance in full by the Payment
Due Date shown on each billing statement.
Where required by applicable law, we will
not charge interest on any portion of a
Purchase balance that is repaid by the first
specified Payment Due Date after each
Purchase was made if you paid the total
New Balance f or the previous billing cycle by
the specified due date.
 If you have a Term It Plan, generally there is
a Grace Period if you pay the combined
amount of the Adjusted New Balance (which
is your New Balance minus the Total Plan
Balance) and the Total Plan Payment by the
Payment Due Date shown on each billing
statement. However, as explained in the
“Payment Allocation” section below, if
the APR for a Term It Plan is higher than
the APR for your other balances, we must
apply any payment in excess of your
Total Minimum Payment Due to your
Term It Plan balance before applying it to
your other balances. In this situation,
your payment would reduce your Term It
balance but may not pay your other
balances in full, which means you could
be charged interest on Purchases.
• For Balance Transfers and Cash Advances –
There is no Grace Period.

If you believe a merchant credit has not been
applied properly, please contact us at 1-800-2532265.

Your Payment Due Date is at least 21 days after
the closing date for each billing statement.
Except as described in this section, if you do not
pay the Adjusted New Balance and any Term It
Payment in full by the Payment Due Date, we will
start charging interest on each new Purchase on
the transaction date or the first day of the billing
cycle in which the Purchase posts to your Account,
whichever occurs later.

Page 6

Payment
Allocation

You may reduce the amount of interest you pay
by making payments that are larger than the
Total Minimum Payment Due. Because federal
law requires payment amounts in excess of your
Total Minimum Payment Due to be applied first to
higher APR balances, these balances will be paid
of f more quickly and you will pay less interest on
them than if you paid only the Total Minimum
Payment Due.

If your Account has balances with different APRs,
we will allocate the amount of any payment that is
less than or equal to the Total Minimum Payment
Due to the lowest APR balances first. Payment
amounts in excess of your Total Minimum Payment
Due will be applied to balances with higher APRs
bef ore balances with lower APRs.
If you have a Term It Plan, you cannot direct your
payment to be applied only to the outstanding
balance owed on that Plan.
• If the APR f or your Plan is higher than the APRs
f or other balances on your Account, any
payment in excess of your Total Minimum
Payment Due will be applied to your Plan.
• If the APR f or your Plan is lower than the APRs
f or your other balances, any excess payments
will be applied to the other balances before your
Plan balance. In this situation, you must pay
your New Balance in order to pay off your Plan.

Account Fees and Charges
You agree to pay (1) the f ees and charges listed below, and (2) the Transaction Fees shown in the Account Summary
Table, subject to any limitation of applicable law. We will not charge the Cash Advance Transaction Fee on any Overdraft
Advance.
Annual Fee: Your Account may be charged the amount (if any) shown in the Account Summary Table on the card carrier.
If an Annual Fee applies to your Account, this fee will be charged to your Account when we issue the Card, and annually
at the end of the month that includes the anniversary date of the opening of the Account. If applicable, it will be charged
regardless of whether you use the Account, and is not refundable even if the Account is closed for any reason by either
you or us.
Late Fee: You may be charged $28 if the Total Minimum Payment Due shown on your billing statement is not received by
us on or before its Payment Due Date. If a late fee was assessed any time in the prior six (6) billing cycles, then the
amount of the late fee will be $39. The Late Fee will not exceed the Total Minimum Payment Due immediately prior to
assessment of the fee. If your balance is less than $50, we will not assess a Late Fee.
Return Access Check Fee: You may be charged $25 if we return an Access Check unpaid for any reason, even if the
Access Check is paid upon subsequent presentment. The Returned Access Check Fee will not exceed the dollar amount
of the Access Check.
Copy Fee: You may be charged $5 f or each copy of a billing statement or sales draft, except that the six most recent
statements and one sales draft will be provided for f ree. We will not charge this fee if you reside in Delaware, Indiana,
Kansas, Louisiana, Maryland, Pennsylvania, South Carolina, West Virginia or Wyoming. Regardless of where you reside,
we will not charge for any statement or sales draft you request in good faith in connection with the resolution of any
disputed billing matter.
Expedited Delivery Fee: You may be charged this Fee if you request and we agree to arrange for expedited delivery of
any Card to you (for example, by an overnight delivery service). The amount of the Expedited Delivery Fee will depend on
the type of delivery you choose to receive, and will be disclosed to you when you request expedited delivery. If you then
conf irm and we honor your request, we will charge the fee. We will not charge an Expedited Delivery Fee in Colorado,
Delaware, Indiana, Kansas, Louisiana, Maryland, New York, Pennsylvania, South Carolina, West Virginia or Wyoming.
Stop Payment Fee: You may be charged $25 for each stop payment requested on an Access Check, whether or not we
actually stop payment, subject to any restrictions of applicable law. We will not charge a Stop Payment Fee in Colorado,
Delaware, Indiana, Kansas, Louisiana, Maryland, New York, Pennsylvania, South Carolina, West Virginia or Wyoming.
Collection Costs: If you are in default, unless prohibited by applicable law we can require you to pay our collection costs,
attorneys’ fees, court costs and all other expenses we incur to enforce our rights under this Agreement. These costs may
include reasonable fees to attorneys who are not our paid employees. We will not charge you for our collection costs if
you owe us $300 or less. We will not charge attorneys’ fees that exceed 15% of the unpaid debt in Alabama, Colorado,
Georgia, Kansas, Maine, Missouri, Montana, North Carolina, Oklahoma or South Carolina, 20% of the amount due in New
York, or 25% of the unpaid debt in Louisiana. We will not charge attorneys’ fees if the principal amount you owe us is less
than $1,000 in Idaho or Wyoming. We will not charge collection costs other than attorneys’ fees if you live in Colorado,
Delaware, Idaho, Indiana, Kansas, Louisiana, Maine, Maryland, New York, North Carolina, Oklahoma, South Carolina or
Wyoming. We will not charge you attorneys’ fees, court costs or other collection costs incurred as a result of your default if
you live in Pennsylvania, West Virginia or Wisconsin.
Rev. 11/02/2020

Page 7

Interest Charges
The APRs and Daily Periodic Rates (“DPRs”) for your Account are shown on the Account Summary Table on the
card carrier. We calculate each DPR by dividing the APR by the number of days in the year.
Variable APRs
Except for any Promotional APR, the APRs for your Account are variable rates. We calculate each variable APR by
adding together an index and a margin. The margin used to calculate each APR is shown on the Account Summary Table
on the card carrier. The index is the highest U.S. Prime Rate as published in the “Money Rates” section of The Wall Street
Journal on the last publication day of each month. If The Wall Street Journal does not publish the U.S. Prime Rate, or if it
changes the definition of the U.S. Prime Rate, the Bank may, in its sole discretion, substitute another index. An increase
or decrease in the index will cause a corresponding increase or decrease in your variable rates on the first day of your
billing cycle that begins in the same month in which the index is published. An increase in the index means that you will
pay higher interest charges and have a higher Total Minimum Payment Due.
How We Calculate Interest
We use the average daily balance method (including new transactions) to calculate the interest owed on your Account for
each billing cycle:
• We f irst figure out the average daily balance for each type of transaction. By type of transaction, we mean Purchases,
Cash Advances, Balance Transfers, Term It Plans, and any such transaction subject to a promotional offer. If any
portion of a Purchase balance received a Grace Period, that amount is not included in this calculation.
• To get the average daily balance for each type of transaction, we take the beginning balance for that transaction-type,
which will include any unpaid balance on those transactions and any unpaid interest on those transactions.
• To the beginning balance, we add:
* For all transactions other than Term It Plans during their Repayment Periods, an amount equal to the applicable
DPR multiplied by the previous day’s closing daily balance. If a Term It Plan has expired or been terminated and
the outstanding balance for that Plan has been transferred to the Purchase balance for your Account (as described
in the “Term It Plans” section above), we may add this amount to that balance. This method of calculating the
daily balance results in charging interest on unpaid interest (also known as compounding) and fees.
* Any new transactions, applicable fees or other debits.
• Then we subtract any payments or credits. This gives us the daily balance. If any daily balance is less than zero we
treat it as zero.
• Next, we add up all the daily balances for that transaction-type during the billing cycle, and then divide this total by the
number of days in the billing cycle. This gives us the average daily balance.
• We multiply the average daily balance by the applicable DPR, and then we multiply the resulting amount by the
number of days in the billing cycle to determine the amount of interest owed for that type of transaction.
• Af ter calculating the amount of interest owed for each type of transaction, we add together these amounts to
determine the total amount of interest owed on your Account for the billing cycle. If any interest charge is due, we will
charge you at least the Minimum Interest Charge shown on the Account Summary Table.
We may use mathematical formulas or computer programs which produce equivalent results to calculate the average
daily balance, interest charges and related amounts.
We add transactions and fees to your daily balance (and they may begin accruing interest) no earlier than:
• For new Purchases – the transaction date or the first day of the billing cycle in which the Purchase posts to your
Account, whichever occurs later.
• For new Balance Transf ers and Cash Advances – the transaction date. For Access Checks and Balance Transfers
made by check, the transaction date is the date the check is first deposited or cashed. For Balance Transfers made
electronically, the transaction date is the date we transmit the Balance Transfer to your other creditor.
• For a Term It Plan – the transaction date (which is the date you create the Plan) or the first day of the billing cycle in
which the Plan posts to your Account, whichever occurs later.
• For a Returned Payment – the date that the corresponding payment had been credited to your Account.
• Fees – the date of a related transaction, the date of the activity or condition for which the fee is charged or, at our
option, the last day of the applicable billing cycle.
Your Responsibility for the Account
These sections describe how certain conditions may or may not affect your responsibility for the Account.
Condition
What It Means To You
Our Rights and Responsibilities
Joint
If you have a joint Account, each of you may use
All persons who requested or otherwise agreed
Account
the Account and we may ask any one of you to pay to be responsible for the Account, whether at
any balance due on the Account. We may send
the time of application or later, are individually
notice to any one of you, and it will be considered
and jointly responsible for the total outstanding
Rev. 11/02/2020

Page 8

Authorized
Users

Unauthorized
Transactions

Rev. 11/02/2020

notice to all of you. Any one of you may give us
any notice under this Agreement. If you give us
dif ferent notices or make different requests, we
may pick which one to honor without telling any of
you. We will not owe anything to you or anyone
else because we picked one of your notices or
requests. We may send Account materials (Cards,
billing statements and notices) to any of you, and
you will be responsible for delivering those
materials to the others and to any authorized
users.
If you permit any person to use your Card, Access
Checks, Account number, or other credit device
with the authorization to obtain credit on your
Account, you will be responsible for all transactions
made by that person to the fullest extent permitted
by law, including transactions for which you may
not have intended to be liable, even if the amount
of those transactions causes your credit limit to be
exceeded. Authorized users may have the same
access to information about the Account and its
users as you have, but may not be permitted to
perf orm all actions available to you. For example,
authorized users may not be permitted to create a
Term It Plan.
You may allow authorized users on your Account
in the f ollowing ways:
• By notifying us that you want someone added
to your Account as an authorized user; or
• By lending your Card or Account number to
another; or
• By any other ways in which you would be
legally considered to have authorized another
person to use your Account or be legally
prevented from denying that you did so.
You must think carefully before you allow anyone
to become an authorized user. By doing so, you
authorize the person to use your Account to the
same extent you can, including but not limited to
making any Purchases, Balance Transfers, Cash
Advances, and allowing others to use your
Account. Your Account does not permit you to limit
the nature or amount of authority you give to any
authorized user and you will not attempt to do so.
An authorized user’s authority will continue until
you notify us that you are terminating the authority
and you physically retrieve the Card. If you cannot
retrieve the Card, you will remain liable for any
transactions that we cannot prevent after you notify
us.
If you notice the loss or theft of your Card or
possible unauthorized use of your Account, you
should write to us immediately at: Regions Bank,
PO Box 413, Birmingham, Alabama, 35201, or call
us at 1-800-253-2265.

balance on the Account. If you and one or more
persons are responsible to pay any total
outstanding balance, we may refuse to release
any of you from liability until you repay the total
outstanding balance owed to us under the terms
of this Agreement.

At your request, we may issue a Card to an
authorized user. We have no obligation to issue
cards to any authorized user, and we may
terminate the access of any or all authorized
users to your Account at any time. If we
terminate an authorized user’s access to your
Account, we may close your Account and open
a new account with a different account number.

You will not be liable for any unauthorized use
that occurs after you notify us. You may,
however, be liable for unauthorized use that
occurs before your notice to us. We will extend
to you the benefits of the zero liability policy, in
ef f ect at the time of any unauthorized use, for
the network responsible for processing
transactions on your Card. In any case, your
liability will not exceed $50.

Page 9

Other Account Terms
Term

What It Means To You

Changes to
Your Contact
Information

You must notify us immediately of any change to your address or any of your other contact
inf ormation by writing or calling us using the Customer Service address or phone number provided
on each billing statement.
We may get and review your credit history from credit reporting agencies and others. We also may
provide information about you and your account to credit reporting agencies and others. If you
believe we have furnished inaccurate or incomplete information about you or your account
Credit
to a credit reporting agency, write to us at: Regions Bank, Credit Reporting Agencies, 2050
Information
Parkway Office Circle, Hoover, Alabama 35244. Please include your name, address, home
phone number, and account number, and explain what you believe is inaccurate or
incomplete.
By providing us with your telephone number(s) and other contact information, you agree that
Regions Bank, its successors or assigns, or any company or person providing services in
connection with your Account may contact you for any informational purposes related to your
Account and in any manner permitted or required by law. This contact may be made using an
automatic telephone dialing system, leaving you a voice or prerecorded message, or sending you a
Telephone
text, email or other electronic message (each a “Communication”). You acknowledge and agree that
Calls and Other
you are providing this consent to receive Communications as consideration and as a bargained-for
Communications
term in a legally binding agreement, and that this consent is irrevocable by you to the maximum
extent allowed by law. If you wish to revoke your consent to be contacted at any cellular telephone
number using an automatic telephone dialing system and/or an artificial or prerecorded message,
we will consider your request in our sole and absolute discretion, subject to the requirements of
applicable law, but you must make your request by calling us at 1-888-219-9227.
You may be offered certain benefits and rewards with your Account. We may change, add, or delete
Benefits and
benef its and rewards at any time and without notice to you. Any such benefits or rewards are not a
Rewards
part of this Agreement, but are subject to the terms and restrictions provided in the separate
agreement f or those benefits or rewards.
If we determine that a credit is due to your Account for any reason (such as the refund of a f ee
Credits and
charged in error), that credit will first be applied to the outstanding balance owed on the Account.
De Minimis
You agree that, if your Account has been closed (whether by you or us) and the amount of any
Refunds
credit remaining after application to any outstanding balance is less than $1, we have no obligation
to ref und that credit to you and you waive any claims you may have to that credit.
Our f ailure or delay in exercising any of our rights under this Agreement does not mean that we
cannot exercise those rights later. For example, if we take no action when you go into default, we
Enforcement
may exercise our rights later if you continue in default or again go into default. If any provision of
this Agreement is found to be invalid, the remaining provisions will continue to be enforceable.
Either you or we may ask to settle disputes relating to this Agreement or your Account by
arbitration. Arbitration is a way of working out disputes without going to court. If you or we ask for
arbitration, we would all meet with a person called an arbitrator. An arbitrator is like a ref eree or a
judge. The arbitrator will listen to what you and we have to say. The arbitrator will decide who is
Arbitration
right. The arbitrator’s decision is called an award. The party who wins the award can take it to any
court that could have heard the dispute and get an official judgment. The specific terms and
conditions under which we may arbitrate a dispute are continued in the “Arbitration” section
of this Agreement. Please read the rest of this section carefully.
This Agreement is made in Alabama and we extend credit to you from Alabama. This Agreement
and your Account are governed by the laws of the State of Alabama (without regard to its conflict of
Governing Law
laws principles) and by any applicable federal laws, regardless of where you reside or use the
Account.
At any time and without notice to you, we may assign your Account, any sums owed on your
Account, this Agreement, or our rights or obligations under your Account or this Agreement to any
Assignment
person or entity. The person or entity to whom we make any such assignment will be entitled to all
of the rights or obligations we have assigned.
You have the right under Maryland Commercial Law Code Section 12-510 to receive an answer to a
MD
written inquiry concerning the status of your Account. Finance charges will be imposed on the
Residents
outstanding balances from month to month in amounts or at rates not in excess of those permitted
by law.
NJ
All provisions of this Agreement are valid, enforceable and applicable in New Jersey.
Residents

Rev. 11/02/2020

Page 10

Arbitration
If your Account was opened on or after October 3, 2017 and you were a “covered borrower” (as defined in the
U.S. Department of Defense regulation implementing the federal Military Lending Act) when you applied for the
Account, this ARBITRATION AND WAIVER OF JURY TRIAL section will not apply as long as you continue to be
a covered borrower.
ARBITRATION AND WAIVER OF JURY TRIAL. Except as expressly provided herein, you and we agree that either
party may elect to resolve by BINDING ARBITRATION any controversy, claim, counterclaim, dispute or
disagreement between you and us, whether asserted or brought in a direct, derivative, assignee, survivor,
successor, beneficiary or personal capacity and whether arising before or after the effective date of this
Agreement (any “Claim”). Claim has the broadest possible meaning and includes, but is not limited to, any
controversy, claim, counterclaim, dispute or disagreement arising out of, in connection with or relating to any
one or more of the following: (1) the interpretation, execution, administration, amendment or modification of this
Agreement (including any Debt Cancellation Addendum to this Agreement); (2) your Account; (3) any charge or
cost incurred pursuant to this Agreement; (4) any transaction involving your Account or this Agreement; (5) the
collection of any amounts due under this Agreement or on your Account; (6) any alleged contract or tort arising
out of or relating in any way to this Agreement, your Account, any transaction on your Account, any
advertisement or solicitation, or your business, interaction or relationship with us; (7) any breach of any
provision of this Agreement; (8) any statements or representations made to you with respect to this Agreement,
your Account, any transaction on your Account, any advertisement or solicitation, or your business, interaction
or relationship with us; (9) any property loss, damage or personal injury; (10) any claim, demand or request for
compensation or damages from or against us; (11) any damages incurred on or about our premises or property;
or (12) any of the foregoing arising out of, in connection with or relating to any agreement which relates to this
Agreement, your Account, any credit, any charge, any transaction or your business, interaction or relationship
with us, including without limitation any agreement regarding benefits or rewards provided in connection with
this Agreement or your Account. If either party elects to arbitrate, the Claim shall be settled by BINDING
ARBITRATION under the Federal Arbitration Act (“FAA”). This agreement to arbitrate shall include any Claim
involving our current and former officers, directors, employees, agents, representatives, contractors, subcontractors,
parent, subsidiaries, affiliates, successors, assigns, any third party that assigned any agreements to us and any of the
respective current and former employees, officers, agents or directors of such affiliates or third parties, and any such
Claim against any of those parties may be joined or consolidated with any related Claim against us in a single arbitration
proceeding. In addition, if we become a party in any lawsuit that you have with any third party, whether through
intervention by us or by motion or pleading made by you or any third party, we may elect to have all claims in that lawsuit
between you and such third party to be resolved by BINDING ARBITRATION under this Agreement.
The arbitration shall be administered by the American Arbitration Association (the “AAA”) under its Commercial Arbitration
Rules or the Consumer Arbitration Rules, as applicable (collectively the “Arbitration Rules”) in effect at the time the
demand for arbitration is filed. In the event of a conflict between the Arbitration Rules and this Agreement, this Agreement
shall control. We will tell you how to contact the AAA and how to get a copy of the Arbitration Rules without cost if you ask
us in writing to do so. Or, you may contact the AAA directly at 1-800-778-7879 (toll free) or at www.adr.org.
If the Consumer Arbitration Rules apply and your Claim for actual damages does not exceed $75,000, you shall be
responsible for paying one-half of the arbitrator’s fees, up to a maximum of $125 (if your Claim for actual damages does
not exceed $10,000) or $375 (if your Claim for actual damages exceeds $10,000 but does not exceed $75,000). For any
consumer-related Claim that does not exceed $75,000, we will pay all other arbitrator’s fees and costs imposed by the
administrator of the arbitration.
If the Consumer Arbitration Rules apply and your Claim seeks actual damages in excess of $75,000 or non-monetary
damages, or if the Commercial Arbitration Rules apply, you shall be responsible for paying the administrative costs and
arbitrator’s fees as provided in the applicable Arbitration Rules. Except as otherwise provided in this Agreement or in the
applicable Arbitration Rules, the final award by the arbitrator(s) may apportion the administrative fees, expenses and
arbitrator’s fees between you and us as part of the award, as the arbitrator(s) determines is appropriate. The fees and
cost stated in this Agreement are subject to any amendments to the Arbitration Rules and fee and cost schedules of the
AAA. The f ee and cost schedule in effect at the time you submit your Claim shall apply. The Arbitration Rules permit you
to request a deferral or reduction of the administrative fees of arbitration if paying them would cause you extreme
hardship.
Each party also has the option of filing an action in small claims court or your state’s equivalent court, for any
Claim or disputes within the scope of the small claims court’s jurisdiction. But if a Claim is transferred, removed
or appealed to a different court, we then have the right to demand arbitration of the Claim.
The arbitration of any Claim of $150,000 or greater shall be conducted by a panel of three arbitrators, unless you and we
agree otherwise. The arbitration of any Claim of a lesser amount shall be conducted by one arbitrator. Unless you and we
Rev. 11/02/2020

Page 11

have agreed on the arbitrator(s), each arbitrator shall be selected in accordance with the procedure in the Commercial
Arbitration Rules for appointment from the national roster, except that the AAA will not administratively appoint any
arbitrator under any circumstances and regardless of the number of parties or amount of your Claim.
Except as expressly provided in this agreement to arbitrate, no Claim may be joined with another dispute or
lawsuit, or consolidated with the arbitration of another Claim, or resolved on behalf of similarly situated
persons, or brought as private attorney general or on another similar representative basis. For any Claim
subject to arbitration, you may not participate in a class action in court or in a class-wide arbitration, either as
a plaintiff or claimant, class representative or class member.
All statutes of limitation, defenses, and attorney-client and other privileges that would apply in a court proceeding shall
apply in and to the arbitration. Any in-person arbitration hearing will be held at a location that is reasonably convenient to
all parties in either your state of residence or the state of your billing statement address with Regions, with due
consideration of their ability to travel and other pertinent circumstances. If the parties are unable to agree on a location,
that determination shall be made by the arbitrator(s).
Any dispute regarding whether a particular controversy is subject to arbitration, including any claim of unconscionability
and any dispute over the enforceability, scope, reach or validity of this agreement to arbitrate disputes or of this entire
Agreement, shall be decided by the arbitrator(s).
The arbitrator(s) shall establish such reasonable procedures as may be necessary for the reasonable exchange of
inf ormation and materials between the parties prior to such arbitration. In rendering an award, the arbitrator(s) shall apply
applicable contract terms, statutes and legal precedent and shall follow the Federal Rules of Evidence, enforce applicable
privileges, and employ applicable burdens of proof. The arbitrator(s) shall award only such relief as a court of competent
jurisdiction could properly award under applicable law (and which shall be governed by the constitutional standards
employed by the courts). The arbitrator(s) shall have the authority to award attorneys’ fees, costs and expenses, in whole
or in part, in instances where such is authorized by applicable law.
All awards shall be reasoned awards and the arbitrator’s findings, reasoning, decision, and award shall be set forth in
writing and shall be based upon and be consistent with the law of the jurisdiction that applies to the Claim. Judgment on
the arbitration award may be entered in any court having jurisdiction.
In the event that the arbitration results in an award which imposes an injunction on you or on us or contains a monetary
award in excess of $250,000, the award shall be reviewable on appeal initiated within 30 days of the award, and shall not
be considered final until after the time for filing the notice of the appeal has expired. The appeal shall be governed by the
AAA Optional Appellate Arbitration Rules; to the extent they are not inconsistent with this Agreement, and shall be
conducted by a panel of three new arbitrators selected to hear the appeal under the procedure for appointment from the
national roster, except that the AAA shall not unilaterally appoint the arbitrators for the appeal, unless you and we so
agree. Appeals must be initiated within thirty (30) days of receipt of the underlying award, by filing a Notice of Appeal with
any AAA office. The decision of the panel shall be by majority vote. Such review shall reconsider anew any aspect of the
initial award requested by the appealing party. Following the appeal process, the decision rendered by the appeal tribunal
may be entered in any court having jurisdiction thereof. If the award does not impose an injunction on you or on us or
contain a monetary award in excess of $250,000, then the award shall not be appealable and shall only be subject to such
challenges as would otherwise be permissible under the FAA.
This agreement to arbitrate does not limit the right of you or us, whether before, during or after the pendency of any
arbitration proceeding, to exercise self-help remedies such as set-off, recoupment, repossession, trustee’s sales and the
like. This agreement to arbitrate does not limit the right of you or us, whether before or during the pendency of any
arbitration proceeding to bring an action (individually, and not on behalf of a class) to obtain provisional or ancillary
remedies or injunctive relief (other than a stay of arbitration) to protect the rights or property of the party seeking such
relief . However, the arbitrator(s) shall have the power to vacate and/or stay any such proceedings or orders granting
provisional or ancillary remedies or injunctive relief, upon application by you or us. The taking by either you or us of any of
the self -help remedies or by filing any action in court, including but not limited to the actions described in the preceding
sentence, shall not be deemed to be a waiver of the right to elect BINDING ARBITRATION of any Claim upon the filing of
a counterclaim, crossclaim, third party claim or the like by either you or us in response to any such action.
You and we specifically acknowledge and agree that this Agreement evidences a “transaction involving commerce” under
the FAA, and hereby waive and relinquish any right to claim otherwise. You and we hereby acknowledge, agree and
stipulate that Regions Bank is a multi-state banking organization engaging in interstate banking and commerce; all
transactions on credit card accounts involve interstate commerce; and we regularly use the services of businesses
located in other states in opening and administering credit card accounts.
Rev. 11/02/2020

Page 12

Should the AAA be unavailable, unable or unwilling to accept and administer the arbitration of any Claim, or any appellate
proceeding, as applicable, or otherwise refuse or decline to accept and administer the arbitration of any Claim, or any
appellate proceeding, as applicable – in whole or in part and for any reason whatsoever or for no reason – this agreement
to arbitrate shall not fail or be invalidated as a result. Rather, in that instance, any party to the Claim may then petition a
court of competent jurisdiction under 9 U.S.C. § 5 to appoint the arbitrator(s). Upon consideration of such a 9 U.S.C. § 5
petition, should the court decline or refuse to appoint the arbitrator(s), then and only then and within 30 days of a final and
non-appealable decision on the matter f rom such court, you and we shall each respectively pick one arbitrator, and those
two arbitrators shall then, by mutual agreement and within 30 days of the selection of the second of them, select a third
arbitrator. The third arbitrator so selected shall then arbitrate the Claim as the sole arbitrator, except with respect to a
Claim f or $150,000 or greater, in which case all three arbitrators so selected shall arbitrate the claim together, with the
award and all pre-award decisions made by majority vote. In the case of any arbitration not administered by the AAA, the
arbitrator(s) shall still be bound by all applicable provisions of this agreement to arbitrate and the Federal Arbitration Act.
They f urther shall administer and conduct the arbitration under the applicable AAA Arbitration Rules, to the extent such
rules may be practicably applied to an arbitration not administered by the AAA.
If any term or provision of this agreement to arbitrate disputes and waiver of jury trial is held to be invalid or
unenf orceable, the remaining provisions shall be enforced without regard to the invalid or unenforceable term or provision;
provided, that if you or we seek to bring a joined, consolidated, or class action for arbitration, and if the foregoing
prohibition against the arbitration of joined, consolidated or class actions is finally held by an authority of competent
jurisdiction to be invalid or unenforceable, the arbitration agreement between you and us shall then be deemed
inapplicable to such joined, consolidated or class action, to the effect that any permitted and lawful joined, consolidated or
class action shall be adjudicated in accordance with the provisions of applicable law and shall not be resolved through
arbitration (provided further, that the jury trial waiver shall, in any event, remain in full force and effect to the fullest extent
permitted by law). This agreement to arbitrate disputes and waiver of jury trial shall survive your death, the closing of your
account and the termination of any of your business or transaction(s) with us, any bankruptcy to the extent consistent with
applicable bankruptcy law and shall also survive as to any Claim covered within the scope of this Agreement.
Whether any controversy is arbitrated or settled by a court, you and we voluntarily and knowingly waive any right
to a jury trial with respect to such controversy to the fullest extent allowed by law.
Your Billing Rights: Keep This Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at the address shown in the version of this section that is
included on your billing statement. In your communication, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
Af ter we f inish our investigation, one of two things will happen:
Rev. 11/02/2020

Page 13

•

If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest
and f ees. We will send you a statement of the amount you owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still
ref use to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question, even if your bill
is correct.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, write to us at the address shown on the
payment coupon included with your statement. While we investigate, the same rules apply to the disputed amount as
discussed above. After we f inish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

Rev. 11/02/2020

Page 14

PRICING INFORMATION FOR REGIONS VISA® CREDIT CARDS
This table summarizes certain costs for new Regions Life, Prestige, Cash Rewards, and Premium Visa Credit Card
Accounts. Each Account is governed by the Credit Card Agreement sent with the Card, which contains the full terms and
conditions of the Account. Regions may change the interest rates, fees and other terms as provided in the Credit
Card Agreement. This information about the costs of the cards is accurate as of July 1, 2021, but
may have changed since that date. To find out what may have changed, you can call us at 1-800-253-2265.
Please carefully review this information.
Interest Rates and Interest Charges

0% introductory APR* for:
15 Months* for Regions Life
12 Months* for Regions Prestige, Cash Rewards, and Premium
After that your APR will be:

11.99% - 21.99% for Regions Life, based on your creditworthiness
and other factors as determined at the time of account opening.
Annual Percentage Rate (APR)
for Purchases

12.99% - 22.99% for Regions Prestige, based on your
creditworthiness and other factors as determined at the time of account
opening.

13.99% - 23.99% for Regions Cash Rewards, based on your
creditworthiness and other factors as determined at the time of account
opening.

13.99%

APR for Term ItSM Plans

for Regions Premium
This APR will vary with the market based on the Prime Rate.a
11.99% - 21.99% for Regions Life, based on your creditworthiness and other
factors as determined at the time of account opening.
12.99% - 22.99% for Regions Prestige, based on your creditworthiness and other
factors as determined at the time of account opening.
13.99% - 23.99% for Regions Cash Rewards, based on your creditworthiness and
other factors as determined at the time of account opening.
13.99% for Regions Premium
This APR will vary with the market based on the Prime Rate.a

APR for Balance Transfers

0% introductory APR† for:
15 Months† for Regions Life
12 Months† for Regions Prestige, Cash Rewards, and Premium
After that your APR will be:
11.99% - 21.99% for Regions Life, based on your creditworthiness and other
factors as determined at the time of account opening.
12.99% - 22.99% for Regions Prestige, based on your creditworthiness and
other factors as determined at the time of account opening.
13.99% - 23.99% for Regions Cash Rewards, based on your
creditworthiness and other factors as determined at the time of account
opening
13.99% for Regions Premium
This APR will vary with the market based on the Prime Rate. a

APR for Cash Advances

How to Avoid Paying Interest
on Purchases

24.99%
This APR will vary with the market based on the Prime Rate.b
Your due date is at least 21 days after the close of each billing cycle.
For Purchases placed in Term It Plans -- We will begin charging interest on the
purchase on the date you place it in a Term It Plan.
For Other Purchases -- We will not charge interest on purchases if you pay your
entire balance, minus any balance owed on Term It Plans, plus any monthly Term
It Plan payments, by the due date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.50

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None for Regions Life, Prestige, and Cash Rewards
$125 for Regions Premium

Transaction Fees:
• Balance Transfer
• Cash Advance
• Foreign Transaction
Penalty Fees:

Either $10 or 4% of the amount of each transfer, whichever is greater.
Either $10 or 4% of the amount of each cash advance, whichever is greater
None

• Late Payment

Up to $39

How We Will Calculate Your Balance: We use a method called "average daily balance (including new transactions)."
See your Credit Card Agreement for more details.
Loss of Introductory APR: We may end your introductory APR and apply the applicable Standard Rate if you make a
late payment.
Additional Terms and Conditions
Variable Rates: Variable Rates on the Account are calculated by adding together an index and a margin. The margins
are shown below. The index is the highest U.S. Prime Rate as published in the “Money Rates” section of The Wall Street
Journal on the last publication day of each month. An increase or decrease in the index will cause a corresponding
increase or decrease in your variable rates on the first day of your billing cycle that begins in the same month in which the
index is published. An increase in the index means that you will pay higher interest charges and have a higher Total
Minimum Payment Due. If The Wall Street Journal does not publish the U.S. Prime Rate, or if it changes the definition of
the U.S. Prime Rate, the Bank may, in its sole discretion, substitute another index.
a

b

Standard Rates for Purchases, Term It Plans, and Balance Transfers:
• Regions Life - Wall Street Journal Prime + a margin of 8.74% - 18.74%
• Regions Prestige - Wall Street Journal Prime + a margin of 9.74% - 19.74%
• Regions Cash Rewards - Wall Street Journal Prime + a margin of 10.74% - 20.74%
• Regions Premium - Wall Street Journal Prime + a margin of 10.74%
Standard Rate for Cash Advances:
• Wall Street Journal Prime + a margin of 21.74%

Introductory Rates:
* Introductory Rate on Purchases applies through the end of either the 15th monthly billing cycle (for Regions Life
Accounts) or the 12th monthly billing cycle (for Regions Prestige, Cash Rewards, and Premium Accounts) after the
Account is opened for all Purchases posted to the Account during the same period. When this Introductory APR
terminates, any remaining balance that had been subject to the Introductory APR will accrue interest at the Standard
APR for Purchases disclosed above, as it may be changed under the Agreement.
† Introductory Rate on Balance Transfers applies through the end of either the 15th monthly billing cycle (for Regions Life
Accounts) or the 12th monthly billing cycle (for Regions Prestige, Cash Rewards and Premium Accounts) after the
Account is opened for all Balance Transfers posted within 60 days of Account opening. When this Introductory APR
terminates, any remaining balance that had been subject to the Introductory APR will accrue interest at the applicable
Standard APR for Balance Transfers disclosed above, as it may be changed under the Agreement.

